U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 11, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Boechler, P.C. v. Commissioner of Internal Revenue, No. 20-1472

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 16,
2021, and placed on the docket on April 21, 2021. The government’s response is now due, after
one extension, on June 21, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including July 22, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1472
BOECHLER, P.C.
COMMISSIONER OF INTERNAL REVENUE

T. KEITH FOGG
LEGAL SERVICES CENTER OF HARVARD
LAW SCHOOL
122 BOYLSTON STREET
JAMAICA PLAIN, MA 02130
617-522-3003
KFOGG@LAW.HARVARD.EDU
EMILY J. KENNEDY
SKADDEN, ARPS, SLATE, MEAGHER & FLOM
LLP
1440 NEW YORK AVENUE, N.W
WASHINGTON, DC 20005-2111
202-371-7382
EMILY.KENNEDY@SKADDEN.COM
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM

